                                   INSPECTOR GENERAL
                                  DEPARTMENT OF DEFENSE
                                     400 ARMY NAVY DRIVE
                               ARLINGTON, VlRGfNlA 22202-4704




MEMOR4NDUM FOR THE DEPUTY ASSLSTANT SbCRET ARY OF DEJENSE
               (COUNTERNARCOI ICS)

SUBJECT: Independent Auditor's Report on the DoD FY 2004 Detailed Accowting
Report of the Funds Expended on National Drug Control P~ogrartlActivit~es
(Reporl Yo D-2005-030)

       We have ~eviewedthe detailed accounting of hncls that DoD spent on [he Nahonal
Drug Control Program f b r kY 2004 The Deputy Assistant Secre~alyof Defense
(Counternarcotics) JDASDLCN]) is ~esponslblcfor the d e t a h d accounting of funds

       Our review was conducted in accordance with attestation standards established by
the Amer.ican Lnstitute of'Certified Public Accountants and in compliance with Generally
Accepted Government Auditing Standards A rcview is substantially less in scope than an
examination, thc objective of which is the expr'ession of'an opinion on the detailed
accounting of funds by DoD on the National DI ug Cord101 Program fbr T;Y 2004.
Accordingly, we do not express an opinion

        Pubhc Law 105-277 IS also known as "The Office of National Drug Control Policy
Reauthomation Act" (the Act) 1he Act Iequrres that DoD annually submit a detalled
accountmg of all h n d s that DoD spent fol National Drug Control Program activities during
the pIevlous ficcal yea (the Report) to the Dl~ectorof the Office of National Dlug ConboT
Policy The Report 1s due no late1 than February I edch yea1 The Act also requires lbat the
Inspector Genela1 of the Department of Defei~sea~ithenticatethe Report ptior to its
submission tto the Dircctor

       Office of National Drug Control Policy Circulm "Drug Control Accounting," (the
Accounting Policy Circula~)Aptil 18,2003, provides the policies and procedures to be used
in prepa~ingthe Report and authenticating the DoD hnds spent on Kational Drug Control
Progtam activities The Account~ngPolicy Circular specifies thc contents of the Report It
must contain a table of pior year drug conttol obligations, listed by functional area, and
include five assertions relating to the obligation data presented in the table

       We rwicwed f o u ~DoD ieprogamrning actions that allocated $953 3 mdlion among
the Military Departments, National Guald, and Defense agencies We determined that
DASD (CN) had allocated the funds to appopriations and project codes intended lor the
DoD Counter drug pIogIam We obtained the year-end obl~gationIepurts frorn the Military
Departmenrs and hational Guard We limited our review of the yearend obligahm repo~ts
to a comparison with funding ~eceivedby the Mihtary Departments and Nat~onaiCiua~d
from UASU (CX)
        We also visited thc Ohio National Guaxd and we reviewed supporting dacumentation
for the $1 3 ~ t d l i o nof DoD Countcrdrug firnding it ~eceivedIn 3 Y 2004 Personnel at the
Ohio Kational Guard provided supporting documentation for all but $32 thousand of the
$1 3 million The majority of its expend~tureswere for salaries and related costs

        In addrtion, we sent out a data request to the Military Departments requesting the
suppotting accounring transactions for two judgmentally selected project codes We did not
~eviewbource documents for the t~ansactmns~dentified 'l'hc M ~ h t a r yLlepartments w c ~ c
able to provide bansaction detail for $1 15 1 million of tbc $1 17 8 million in these two
project codes

       DASD (CN) provided the Report in a letter dated January 11, 2005, which we
reviewed to deterrn~rleconlpliaice with the Accounting Policy C i r c u l ~ The detailed
accounting indicated that $916 5 million was ohhgated durlng i-Y LOU4 for the Do13
Counterdrug program in seven functional areas The Office of the DASD (CN) manually
compiled the R e p o ~from
                      t    data the Militay Departments and othcr DoD Components
subnutted

        DASD JCN) initially rep~ogrammedthe funds from the Central T~ansf'e~       Account to
the DoD Components, uslng project codes I he UoD Components provlded year-end
obligation reports, identified by the same project codes, to the Office of the DASD (CN)
The Office of the DASD (CN) consolidated the yeat-end obllgat~anleports Into one
obligdtiorl repurt 111 order to present the oblrgatlons by iunclrona1 area, In compliance with
the Accounting Policy Circular, the Office of the DASU (CK)applied pe~centagesto each
project code in the consolidated report to compute the amounts p~esentedin the table of
obligations instead of ohtatnlng the inlbrmatlon dilectly horn Ihc accountrng qysterns

        W2 cannot attest to the amounts presented in the table of obligations of the Keport
IIowevcr, we can attest that the methodology described in the Rcport is the methodology
used to genetate the amounts presented, Based on our review, except for the fact that the
Office of the DASL) (CK) used percentages to calculate the obligations presented by
functional aIea, nothing came to our attent~onclurmg the levlew that caused us to believe thc
detailed accounting of funds expended by DoD on the National Drug Control Program for
FY 2004 is not presented, in all matetial tcspects, in confhrnity with the Accounting PoIicy
U t cular


       We provided a draft of this report to pe~sonnelin the Uifice of the DASD (CN) who
pr ov~dcdcomments, whlch have been ~ncorpotated as appr opr late




-..
Y au$$'61anetto, CPA
As. stant Inspector General,
Defense Financial Auditing Ser-vice
                         OFFICE OF THE ASSISTANT S E C R E T A R Y OF DEFENSE

              I                     WASHINGTON. D.C. 20301 -2500




 SPECIAL OPERATIONS,
LOW-INTENSITY CONFLlCl




     Mr. David J. Rivait
     Associate Director
     Ofiicc of Programs, Budget, Research and Evaluations
     Office of National Drug Control Policy
     750 17"' Street, NW
     Washington, DC 20503

     Dear Mr. Rivait:

             In my capacity as Department of Defense Depuly Assistant Secretary of Defense for
     Countcrnarcotics, I assert that the drug methodology used to calculate obligations by drug
     control function of Fiscal Year 2004 budgetary resources is reasonable and accurate, 1
     firrther assert that the obligation table in TAB A was generated by the methodology as
     reflcctcd in TAB B. The obligations are associsltcd with a financial plan that propcrly
     rcflects all changes made during the fiscal year. The Counternarcotics Central Transfer
     Account does not receive Fund Control Notices and, therefore, any assertion regarding this
     is inapplicable.


                                                Sinccrely,




                                                                   ecretary of Defense for
                                                Counternarcotics




     Enclosures:
     As stated

     cp:
     DODTG
CENTRAL TRANSFER ACCOUNT


         Intelligence
         Interdiction
         Investigative
         Prevention
         R&D
         State & Local Assistance
         Treatment
         Total

*This amount includes a 94% obligation rate for MILPERS and a 99% obligation rate for O&M.
Investment appropriations, which are multi-year, are currently obligated at 68%.


DRUG RESOURCES PERSONNEL SUMMARY

         Total FTEs
                                   DRUGMETHODOLOGY

Central Transfer Account

       The Counternarcotics Central Transfer Account (CTA) was established in PBD 678
in November 1989. Under the CTA, funds are appropriated by Congress to a single
budget line, not to the Services baselines. The CTA accounts for all counternarcotics
resources for the Department of Defense with the exception of OPTEMPO and Active Duty
MILPERS. Funds are reprogrammed from the CTA to the Services and Defense Agencies
in the year of exewtion. The CTA allows Tor yrealer execuliun flexibility in Lhe
counternarcotics program with the ability to realign resources to address changes in
requirements. The CTA is essential to respond effectively to the dynamic nature of the
drug threat.

       The Office of National Drug Control Policy (ONDCP) reports within the National
Drug Control Strategy the amount of funds appropriated to the counternarcotics CTA. The
actual obligations for the counternarcotics program for a particular fiscal year differ from
the amount released to the CTA since some of the DoD counternarcotics effort is executed
with multi-year funding.

       The reprogramming process begins with reprogramming documents (Dl31415 and
DD1105) prepared by the Office of the Deputy Assistant Secretary of Defense for
Counternarcotics and forwarded to DoD Comptroller. Funds are reprogrammed to the
applicable approprietionlbudget activity at the ServicelDefenco Agency by project (e.g.,
Navy's Fleet Support, Hemispheric Radar System, Counternarcotics RDT&E). The
internal reprogramming (JR) action requires no congressjonal notification/approval.

         The ServicesIDefense Agencies have their own internal accounting systems for
tracking obligations of funds transferred from the counternarcotics CTA. The following
examples provide the process of how obligations are tracked:
    The Army Budget Office receives obligation data from the Defense Finance and
    Accounting System (DFAS) on a monthly basis and funds are tracked by the
    DFASlStandard Army Financial Information System (STANFINS).
    The Air Force uses the USAF General Accounting & Finance System (GAFS) to track
    obligations. This system interfaces directly with the DFAS.
    The Navy uses the Standard Accounting and Reporting System, Field Level (STARS-
    FL) which provides the means of tracking allocated counternarcotics funds through the
    life cycle of the appropriation at the activitylfield level. Navy counternarcotics funding is
    recorded under separate cost centers and sub-cost centers, with a line of accounting
    consisting of subhead, project units and cost codes specifically for counternarcotics
    obligation tracking.
    The Army and Air National Guard employs a central accounting service from the DFAS
    to consolidate, aggregate, and report on funds as they are committed, obligated, and
    expended. The Army State and Federal Program Accounting Codes and the Air
    Accounting Codes provide funds-tracking mechanisms to reconcile funding at various
    levels of reporting and execution.
      The ServicesIDefense Agencies provide quarterly obligation reports by project code
to the Office of the Deputy Assistant Secretary of Defense for Counternarcotics (CN).
These individual reports are recorded on a spreadsheet and compiled into a single
counternarcotics obligation report. The obligation and expenditure data provided by the
ServicesIDefer~seAgericies are compared against their total annual counternarcotics
funding for each appropriation. At the end of the year, the ServicesIDefense Agencies
provide an end of year status report which reflects their actual obligation data, not an
est~matlon.

       The quarterly obligation reports provided by the ServiceslDefense Agencies include
obligation and expenditure data by project code, not down to the drug control function. In
order to comply with ONDCP's circular and provide obligation data by function, it was
necessary to use percentages for each project code.
